     .""'




                                 PHYSICIANS APPLYING FOR

                                     FEDRA SERV I CE :

                         REQUIREMTS AND CREDENTIALS VEIFICATION





        M.   \&IVrCl..




1o


            "'tlJa



OFFICE OF INSPECTOR GENERAL
            OFFICE OF ANALYSIS AND INSPECTIONS



                                                            SEPTMBER 1988
                  Office of Inspector General


The mission of the Office of Inspector General (OIG) is to

promote the efficiency, effectiveness and integrity of programs

in the United states Department of Health and Human Services

(HHS) . It does this by developing methods to detect and prevent

fraud, waste and abuse.   Created by statute in 1976, the
Inspector General keeps both the Secretary and the Congress fully
and currently info ed about programs or management problems and
recommends corrective   action. The eIG performs its mission by
conducting audits, investigations and inspections with

approximately 1, 200 staff strategically located around the
country .
                 fice of Analysis and Inspections


This report is produced by the Office of Analysis and Inspections

(OAl), one of the thee  major offices within the OlG. The other
two are the Office of Audit and the Office of Investigations.
The OAl conducts inspections which are tyically   short-term
                                       effectiveness, efficiency

studies designed to determine program
and vulnerability to fraud or abuse.
This study was conducted to (1) identify the education and

licensure requirements for physicians in full-time clinical   care
posi tions in Federal agencies: and (2) review the process
followed to verify physician credentials.

The report was prepared under 'the direction of William C. Moran,
Regional Inspector General, Office of Analysis and Inspections,
Region V. Participating in this project were 'the following
people:
Natalie Coen, Project   Leader      Alan Levine - Headquarters
John Traczyk

Suzane Johnon

Margaret Shell
Aquilla Box

                   PHYSICIANS APPLYING FOR

                       FEDER SERVICE:
            REQUIREENS um CREDENIALS VERIFICATION




                     RICB P.      KUSSEROW
                      INSPECTOR   GEN




OAI-05-88-00750                               &rmG ER 1988
                               EXCUIVE SUMY

PURPOSE   This inspection was conducted at the request of the
President's Council on Integrity and Efficiency to review
physician credentials requirements of various Federal agencies
and to evaluate the methods used to verify physician credentials.
The study focused on the qualifications of full-time physicians
invol ved with patient care.

BACKGROUN      Federal and State Governents, as well as the
private sector , have become increasingly concerned about

physicians ' performance and qualifications. The number of
malpractice suits filed against Federal and private physicians

has increased steadily since         1980.          The number of license
revocations taken by State boards increased almost 60 percent

from 1984 to 1986. The news media has reported cases of

unethical or incompe           behavior by priva e physicians as well
as some of 
 he approxima ely 24, 000 physicians that 
                  e Office of

Personnel Managemen (OPM) reports were employed in                          by the
Federal Governen       In addi          ion,
                                                                    i985

                                                   he Federal Bureau of
Investiga ion has iden ified a number of " diploma mills " selling
bogus medical degrees.
The New England Journal of Medicine in a February 11 , 1988
article en   led " Falsification of Clinical Creden
Physician Applying for Ambula ory-S aff Privileges ials   by
                                                     " reports on
the results of a review of clinical creden             ials lis
applican physicians. Of 733 physicians applying foredpositions,
                                                         by
  5 percent gave false informa ion about their residency, 1.

percent falsely reported board cer           ifica
                                          ion and . 3 percent
provided false information about bo h residency and board
certifica ion.
Based on information supplied by OPM , we selected for review 7

Federal agencies with 35 or more full- ime physician on s aff
as of 1985:    ( 1)  the Deparent of      Health and Human Services
(the Social Securi ty Adminis ration , the Health Care Financing
Adminis     ion , the Cen ers for Disease Con rol, the Alcohol Drug
Abuse and Men al Health A
Admni.      ion , the Heal
                                   nis    ion, the Food and Drug
                                h Resources and Services Administra ion
(HRSA),  an  the Na ional Ins i tu es of Heal      h ) : ( 2) the

        e; the DeparentAr
Departen of Defense (the               and the Navy); ( 3) the Department
of St:a    ( 4)         of             Tranportation (the Coast Guard
and the Federal Av1a ion Adminis             ion); (5) the Deparent
Justice (the Bureau of Prisons); (6) the Ve eran Admnis ration
(VA); and (7) the Na ional Aeronau ics and Space Admni.tration
(NASA). For ea.e in reporting, 3 agencies,         (NAA, VA, and
Depar'tent of S          e) plus the 12 COponen s in the remaining 4
agencies will hereafter be referred to as organzations.
Most of the Federal organizations reviewed in this study operate
under a combination of two of the following personnel systems:
the civil service, the Public Health Service (PHS) Commissioned
Corps and the military services. The VA and Department of State
have personnel systems uniquely their   own. Each personnel system
establishes minimum physician qualification standards and uses a
uniform application form. However , each individual organization
may require additional qualifications or information not
solici ted on the standard personnel forms..
The military, the PHS Commissioned Corps, and the VA have

recently revised their physician qualifications and verification

procedures. Many of the best practices identified in this report

reflect these changes.. The OPM is also currently revising the

standards and qualifications required of civil service

physicians.. We hope this report can further assist these

organizations in refining their credentialing processes 


FINDINGS:
     All personnel systems require physician applicants who will
     provide direct patient care to hOld, at a minimum , a
     medical degree from an accredited school or to demonstrate
     comparable medical education and training if graduating from
     a foreign or unaccredited school. In addition, physicians
     must have completed an approved residency program and
     possess a current, valid,  unestricted State medical
     license.  Five organzations   reqire board certification in
     specified medical specia1ty areas for certain positions..
     Civil service is the only personnel system that does not

     require clinical care physicians, once employed, to maintain

     curent, valid licenses.
     Disclosure requirements vary widely. There is no uniformity
     amng personnel systems, agencies or wi thin some
     organzations.   Wi thin the 15 organzations studied, none
     reqire  disclosure of Medicare/Medicaid sanctions, only 2
     consistently ask about'voluntar surender of a   licensee s) ,
     and only 3 require information regarding censure or
     reprimad by a bespi tal   staff.Three consistently request
     malpractice claims information. In addition , disclosure
     reqirements are frequently limiting or unclear , allowing an
     applicant to misinterpret or withold the reqired
     information.
     Few organizations, with the notable exception of the Ary,
     Navy, and VA, consistently verify all physician credentials
     wi th primary sources such as medical schools, althugh
     several organizations consistently verify .edical licenses
     wi th  State boards. Some respondents assumed incorrectly
     tha he Na ional Agency Check and Inquiry constituted
     verification of creden               ials.
                                   Some organizations are not
                he physician disciplinary da                                a ban
              ilizing
                                                     maintained by
      he Federa ion of State Medical Boards          o identify
     adverse practice history information , nor are they
                                                                          (FSMB)



     requesting the American Medical Association s (AH)
     physician profile. Only PHS, the Army, Navy and VA have
     established written guidelines on proper verification

    procedures.

RECOMMENATIONS:

    Agencies employing civil service, clinical care physicians
    should require  hem to main ain curren , valid State medical
    licenses; or   o be consis     wi th o her personnel syste
    OPM should                  reqire all civil
                                 service  physician, once
    employed, to main ain medical licensure if they are
    providing direct patien                  care.
                                                 o exemp cer ain
                                                             Provisions
    physicians from 
his requirement (e. g.,
    in foreign countries) should be considered.

                                                        working            physician
    Physician disclosure reqiremen s wi thin an agency should be
    uniform across all organizations and personnel sys ems.
    Organiza ions should reques more in-dep h disclosure of
    adverse prac ice history information from applican
    Disclosure questions should be wri
                                        en in a clear and

    precise maner. To assis                      the organzations in
                his
    endeavor ,a suggested disclosure questionnaire has been
    developed and is con ained in Appendix 8.

    The curren licenses held by a physician applicant should
    always be verified direc          he appropria e S ate
    licensing boards. Organiza ions should
                                            ly wi th

                                            also con act primary
    sources  o verify medical degrees and completion of

       esidency progams.
             he organzations
    verifica ion procedures byreviewed should s rengthen
    Mos                 of

                               developing wri en guidelines to
    be used by personnel involved in verifying physician
    qualifications.  Verification  of disclosure information
    should include accessing na  ional physician da
    as FSMB' s disciplinary data base or the AM' s Physician
                                                             such                   a bans
    Masterfile.




                                             iii

     All agencies should screen physician applicants and
     periodically screen all physician employees against the
     federally-operated National Practitioner Data
     operational.                                   Ban,   when
                    The bank is mandated by The Heal th Care
     Quality Improvement Act of 1986 and The Medicare and
     Medicaid Patient and Program Protection Act of  1987.   This
     activi ty should be coordinated with all personnel systems
     and organizations operating wi thin the agency to ensure all
     physicians are screened.

COMMS:
We received comments regarding the draft report from 13 of the 15
organizations reviewed. In addition, we also received comment
from OPM and the Air Force. All  respondents agreed with the
recommendations contained in the  report.  Four of the
organizations reviewed indicated that they will be taking
specific action to strengthen policies and procedures pertaining
to physician requirements for clinical positions, disclosure
requirements, and verification of physician credentials. The
remaining organizations stated that all or part of the
recommendations were already being followed wi thin their
organizations: however, they would continue to evaluate their
policies and procedures. Specific comments regarding agency and
organization reactions to the recommendations appear on pages

20-23 of the reportG

The OPM indicated in their response that they will be reexamining

the Medical Officer qualifica ion standards and one of the key

issues that will be addressed is the need to require clinical
care physician to  maintain current, valid licenses.
We wish to than  those that commented on our draft report. Many
of the suggestions to help clarify and strengthen the text have
been incorprated into the final report.
                           TABLE OF CONTENTS


                                                      Page
       EXECUIVE SUMRY
       INTRODUCTION

          Purpose
          Background
          Scope and Methodolog
 IIo   FINDINGS
          Physician Qualifications
          Disclosure Requirements
          Verification Techniques
III.   RECOMMNDATIONS

 IV.   APPENDICES

                Departmental Statistics
                Medical Officer Disclosure Model
          c.,   Description of the Federation of
                State Medical Boards ' Disciplinary
                Data Ban
                             INTRODUCTION

PURPOSE

This inspection was conducted at the request of the President'
Council on Integrity and Efficiency to:
     identify Federal personnel requirements for physicians

     seeking full-time employment:
     identify techniques used by organizations in verifying
     credentials and other information requested from applicants;
     and,
    identify best practices that can be shared by the Inspectors

    General with their respective organizationso

BACKGROUN

In recent years a number of events have occurred that indicate
both the governental and private sectors need to increase their
scrutiny of physician credentials. They are as follows:

    identification by the Federal Bureau of Investigation (FBI)
    of physician " diplomamills, " schools selling bos  medical
    degrees (" Fraudulent Credentials: Federal Employees,
    hearing before the Subcommittee on Health and Long-Term
    Care, April 1986);
    concerns about the adequacy and authenticity of the
    education received by graduates of foreign medical schools
      Medical Licensure and Discipline: An OVerview " report
    by the Deparent of   Health and Human Services (HHS), Office
       Inspector General (OIG), June 1986, control number P-Ol­
    86-00064) ;
    an increasing   pol of unlicensed physicians practicing
    medicine (" Strengthening  Educational and Licensure Standards
    for Physician in   New Jersey, " report by the New Jersey
    State Board of Higher Education and the State Board of

    Medical Examiners, March 1987 and " Medicare and Medicaid

    Payments for Physician Services Rendered by Practitioners

    who had Lost Legal Authority to Practice in the State of

    Florida, " report by the HHS, OIG, August 1987 , control
    number A-04-87-02011);
    an increase in the number of malpractice suits filed against

    medical doctors each year (" Report of the Task Force on
    Medical Liability and Malpractice, " HHS, August 1987):
                                                      , "





     a 60 percent increase in physician license revocations
     taken by State boards since 1984 (study conducted and
     published by the Federation of State Medical Boards (FSMB)
                             Tribune , November 9, 1986); and
     reported in the Chicago 




     a recent article in the February 11                    The New

                                                    , 1988 edition of 


     England Journal of Medicine entitled    Falsification of
     Clinical Credentials by Physicians Applying for Ambulatory ­
     Staff Privileges, " which reports 5 percent of the 773
     physicians reviewed presented false clinical credentials.
     Three and one half percent gave false information about
     their residency, 1. 3 percent falsely reported board
     certification and . 3 percent provided false information
     about both residency and board certification.
Congress has focused its attention on protecting the public from
imaired,  unqualified, and unethical physician. According to
reports by the Congressional Subcommttee on Health and Long-Term
Care and by educational agencies regarding fraudulent
credentials, 1 in 50 physicians may have used some form of
fraudulent credentials in seeking employment. These reports also
note that while most United States businesses emphasize
educational levels when making employment. decisions, most do
nothing to verify school credentials.

Congress passed The Health Care Quality Improvement Act of 1986
and The Medicare and Medicaid Patient and Program Protection Act
of 1987.  These laws will facilitate the verification of
physician information presented on resumes and application forms.
Most of the medical officer positions located in the Federal
agencies reviewed are filled by physicians in clinical, patient-
care settings. The next largest group of             arephysician
researchers and investigators in nonclinical positions, followed
by progam administrators and managers who supervise staff
physician or  formulate policies and procedures.
Physicians applying for positions in Federal service must meet
the mini    reqirements established by the personnel systems
under which an organzation' operates. Most of the organizations
reviewed in           ths
                 s'tdy operate under a combination of two of the
fOllowing personnel systems: the civil service, the Commissioned
Corps of the Public Health Service (PHS), and the military
services. For                instance, the Deparent of
                                           Defense (DOD) has
           militar
commissioned
service physician.
                      officers who are physician and civil
                     The Coast Guard has both civil service
physician and officers in the PHS             Cossioned Corps.
                                                        The
Veterans Administration (VA) and             Deparent of
                                               State have
personnel system unquely               their own.
                                       The VA employees receive
civil service benefits; however, VA uses its own personnel
application form and establishes its own personnel standards and
qualifications. The Departent of State is under the foreign
service system, although they use the standard civil service
forms and require additional qualifications to those specified by
the Office of Personnel Management (OPM). Appendix A indicates
the tyes of  personnel systems operating wi thin each agency.
Verification of physician credentials and other related
information is a somewhat complicated process because there are
layers of review.  Typically, a physician s qualifications come
under scrutiny by personnel specialists who screen the
application to ensure all personnel requirements are
or perhaps at the same time, security personnel verify
                                                        met.
                                                           Next,
information to ensure that the applicant is sui table for
emploYment. Physician applying for clinical care positions may
also need to apply to a credentialing board of a Federal hospital
for medical privileges. Again, credentials are scrutinized
primarily to determne the medical skill and competency of the
applicant.  Some organzations also have staff who are
responsible for screening the credentials of all physician
applicants before they are hired. Hiring officials receive the
information accumulated through the preemployment process and
make a decision regarding the applicant. However , some
organizations have centralized medical appointment boards that
must approve all  physician before they are hired.
SCOPE AN MEODOLOGY
The term " physician credentials, "
                                  when used in    ths
                                                    report,
refers to information and documents provided by the applicant
regarding academic background, residency, licensure and, "
necessary, board certificatioQ. The term " practice history
information refers to adverse actions taken against a physician
while practicing medicine. This information may include
disciplinar  actions taken by State licensure boards, peer review
commttees, or sanctions by Federal entities. It includes
information regarding malpractice awards resulting from
inappropriate care, denial of malpractice  inurance, censorship
by professional organzations, etc.
This report does not focus on the entire preemployment process
because it differs in almost every    organzation.  However, we
compared reqirements and qualifications, and looked at
verification techniques which were used by personnel specialists,
securi ty specialists, and hespi tal credentialing committees.
Since most of the full-time Federal   physician  are employed in
clinical care positions, we focused on the verification of
credentials for these physician.
Based on information 8upplied by OPM, we selected for review 7
Federal agencies with 35 or more full-time physician on staff
as of 1985:   (1) HHS (the Social Security Admnistration , the
Heal th Care Financing Admnistration , the Centers for Disease
 Control, the Alcohol, Drug Abuse and Mental Health
 Administration, the Food and Drug Administration , the Health
 Resources and Services Administration (HRSA), and the National
 Insti tutes of Health (NIH)): (2) DOD (the Ary  and the Navy); (3)
 Department of State;  (4) the Department of Transportation (the
 Coast Guard and the Federal Aviation Administration): (5) the
 Department of Justice (the Bureau of Prisons); (6) the VA; and
 ( 7) the National Aeronautics and Space Administration (NASA).
 For ease in reporting, 3 agencies, NASA , VA and the Department of
 State, plus the 12 components within the remaining 4 agencies

 will hereafter be referred to as
 organizations were conta ted.

                                   organizations. In all , 15


 Field work was conducted primarily at the Headquarters of these
 organizations with the exceptions of VA and DOD. For
 decentralized organzations, telephone interviews were also
 conducted with selected regional or local  staff.  Because the
 General Accounting Office was concurrently conducting reviews of
 VA and DOD, we limited our contacts with these agencies to Ary,
 Navy and VA officials wi thin the Chicago area and selected
 Headquarters officials. (It should be noted that the Air Force
 was not interviewed during this study).   For the most part, we
 relied on file information regarding DOD and VA physician
 requirements and credentialing practices. Because it was not
 feasible to contact every field office, regional office and/or
 medical facility operated by the sampled organizations, our
 analysis may not reflect all local credentialing practices within
 an organization.
 We interviewed personnel directors and staff, security officers,

 clinical directors, area directors, employee relations

 specialists, tort specialists, and chief medical officers.

 Appendix A lists the organizations involved in this study by

 agency and indicates the approximate number of fUll-time

 physician employed.
 We examned application form, disclosure   statements, personnel
 and employee reference form letters and checklists used to verify

 physician credentials. In addition , we reviewed written policies

 and directives regarding physician emloyent   reqirements and
 verification procedures, to the extent they were available.
 We analyzed 72 case abstracts of HHS and VA physicians whose

 licenses were revoked, suspended or restricted before they were
 hJred for Federal service. Information regarding the VA
 physician was gathered from a report entitled . Audi t of
 Licensure Status of Veterans Admnistration Physician,
 September 1986, prepared by the VA Inspector General.
 Information regarding HHS physician was provided by the Office
. of Audit within HHS, OIG. (It should be noted that the HHS
  physician  referred to above were identified as a result of the
 ini tial matching progam, which is curently   ongoing, with FSMB
and the AM' s Physician Masterfile.   Corrective action regarding

these physicians has been taken.

The military, the PHS Commissioned Corps, and the VA have
recently revised their physician qualifications and verification
procedures. Many of the best practices identified in this report
reflect these changes.  The OPM is also currently revising the
standards and qualifications required of civil service
physicians. We hope this report can further assist these
organizations in refining their credentialing processes.
                                  II.     FINDINGS
PHYSICIAN QUALIFICATIONS

Finding:   All  he personnel sys ems reviewed require physician
           applican    o mee   he same minimu educa ional and
           licensure requiremen s if  hey are applying for
           clinical care posi 
         ions .
The minimum requirements are as follows: a degree from an
accredi ted medical school, completion of an approved internship
and/or residency program, and possession of a current, valid,

unestricted state medical license.
An accredited medical school is defined by all the personnel
system as a United States or Canadian medical school approved
by the Liaison Committee of Medical Education during the year the
applicant graduated.
Applicants graduating from foreign or unaccredited medical

schools must demonstrate to reviewing officials that the medical
education and knowledge received is substantially comparable and
equivalent to that offered by an accredited medical school as
defined above. Comparability may be evidenced by a valid,
unestricted  State license: specialty board certification:
permanent certification by the Educational Commission for
Foreign. Medical Graduates (ECFMG): or, 1 year of service as an
active duty comissioned medical officer in the medical corps of
the military or the PHS Commissioned Corps and performance of
unestricted  duties including the treatment of patients.
An approved residency program is defined by the personnel

systems as one that was approved by the Accreditation Committee

on Graduate Medical Education during the applicant' s period of

participation. Usually the applicant must have completed no less

than 1 year of approved residency
are occasionally made.
                                                 training.
                                             However, exceptions

Personnel systems, with the exception of the PHS
Corps, did not usually require an applicant applying for a
                                                                Coissioned
research position to possess a current license unless the
research would include patient care activities. On the other
hand, many organizations required licensure for physicians
applying for admnistrative positions where they would be
supervising patient care settings, or rotating be een clinical
and administrative assignents.
Five organzations have some positions which
to have specialty board certification to .eet the 81nium
                                                             reqire
                                                     applicants
reqirements. However , this qualification is not reqired for
all positions within these organizations. Others " reward" board-
certified physicians by allowing them to enter Federal service at
                                                             -,
higher grade levels or pay physicians bonuses for such

credentials.
Uni ted states citizenship is required by all the personnel

systems. Occasionally   this requirement is waived by civil
service if the physician is otherwise qualified and will be

placed in a " hard to fill" position in a medically underserved

area.
Finding:                 Civil service is the only personnel sys em        does
                            reqire   physicians, once emloyed,   o main   ain
                         cuen   , valid licenses.
The PHS Commissioned Corps requires commissioned officers to
Maintain current medical licenses regardless of whether they are
working in clinical, research or administrative positions,
although exceptions, usually for                physician
                                            holding research
positions, may be made on a case-by-case               basis.
                                                 The military,
Department of State and VA, with certain exceptions; e.g.,
physicians working in foreign countries), require their clinical
physician to  maintain current, valid licenses. However , civil
service physicians, once appointed to clinical positions, do not
need to maintain their medical licenses with the exception of
those working in the District of Columbia. On the other hand, if
a civil service physician applies for another competitive civil
service job which requires licensure, then he or she must possess
a current, valid license to be eligible for the position.
It should be noted that the above finding applies to personnel
systems in general. Civil Service physicians in clinical care
posi tions employed by PHS, DaD , VA and the State Department are
required to maintain medical licenses because 1 t is a uniform

policy of these agencies.

DISCLOSUE REQUI
J'iDing:  Phy.ician di.closue r8qir       . var widely. There
          i. DO unfora ty 8Ing per.onnel 8y.       agencie. or
                 .08 organza ion..
While all personnel systems serving the organzations reviewed
have established unform                        physician
                                       minimum requirements for
applicants, each systemreqests
1 on page 8 comares disclosure
                               additional information. Chart
                                              reqirements of the military,
civil service, and the PHS 
             Co-i ssioned Corps. As this chart
indicates, the military               reqires
                                the most disclosure by its
physician applicants. Of the 13 areas listed, only the following
are uniformly reqired by all personnel system to be disclosed:
( 1) felony convictions, ( 2) courts-marial convictions, ( 3 )
misdemeanor convictions, ( 4) professional references, (5)
violations of Title 21, u. S. Controlled Substance Act, and (6)
revocations of a State medical               license. It
                                             should be noted that
disclosure of the first four items are required of all applicants
applying for Federal service, and only the
are specifically addressed to physicians.
                                                       fif
                                               h and sixth items


                                         CHT 

                     DISCLOSURE REQUIREMENS BY PERSONNEL SYSTEMS.

                                                 Civil               Hi 1i1:ary
     Inform1:ion Required                        Service     Corps   Services
MEICA LICENSUR
Nul tiple Licenses
License Application Refused
DBA CONTOLLED SUBSTANCE              PERIT
Registration
Denial/Surrender /Loss of
     Permi t

PRACTICE HISTORY

Convictions:
 Felonies/Courts-Martial
     Misdemeanors
     Substance Abuse Violations

     Torts
Licensure Problems:

     Voluntar Surrender
     Invol untary Actions
Privileges Problems
Professional Association/Peer
     Review Problem
Professional References


*Most of     e organzations reviewed operate under a combination

  of two of the three personnel system on            ths chart.
  personnel system used by the Department of State and VAThe
  were not 
  cluded because each is unique to its own agency.

We also found no consistency in disclosure reqirements among the
agencies studied, nor consistenCy amng organizations wi in an
agency. In fact, 
              ere was rarely consistency wi1:n
organization itself.  Only VA and               e Deparent of
                                                      State have
consistent disclosure requirements of all            physician
                                                       applying for
positions. The DOD has uniform directives regarding
credentialing: hoever the              Ar
                                  and the Navy have added their own
specific requirements which pertain only to those applying for
military positions. Civil service   applicants within military
organizations must meet only DOD/civil service requirements.
Wi thin HHS organizations, there are similar inconsistencies
caused by the requirements of the civil service and PHS
Commissioned Corps personnel      systems.
                                        The NIH has addressed the
si tuation by imposing uniform requirements on all physician
applicants regardl ss of the personnel systems operating wi thin
this organization.


Chart 2 compares the disclosure requirements used by the 15

organizations studied. Only six consistently require all

physicians to disclose all States where they currently hold or

have ever held a State medical license. Only three consistently

ask about any malpractice claims or settlements       None asked
about Medicare/Medicaid sanctions: however, the Bureau of Prisons

indicated they did screen physicians against the Medicare/
Medicaid sanction listing. only two organizations consistently
inquired if a State license had ever been voluntarily
surrendered.  Three organizations consistently asked if hospital
privileges had ever been revoked or suspended, and only seven.
consistently asked applicants if any State
violated.
                                                drg
                                                laws were ever

                                  CB'r 2

                ORCUID'IIONS' DISCLOSU UQUI


               IDfoZ''tiOD Reqred
                                                      If
                                                      GrgaDi.a'tion8

  MEICA     LICE        Nul     iple License.
                        Lic8fe Application(.)
                              Refu.ed
  Dn COIfOLLED

    SUBSTANCE PERI'!    Regi.           ion

                        Deal/Surender /Lo..
 . PUC'ICB BIS'RY       Convic ions:
                           Felonie./Cours-Marial
                           M1.d_eanrs
                        'rort.
                        Sub.tance Abu.e Viola ions
                        Mecare/Mecaid. Santions
                        Licen    Prbl_:

                         Voluntar Sur8Der
                          Invluntar Action

                        Privilege. Prbl..
                         Insance Probl-
                        Profe..ional Assoiation or
                           P_r Rev1e" Probl..
                        Prfe..ionl R"'erene.
The NIH, VA , the    Ar
                      and the Navy have more comprehensive
disclosure requirements, thus allowing their hiring officials to

make a more educated assessment of the potential risks to the

agency posed by the . applicant.
In examining how physicians with disciplinary histories had
slipped through employment screens , the OIG/VA and OIG/HHS found
among other problems, that more extensive disclosure could have
prevented certain physicians from entering Government service.
For instance, one case involved a physician who had a history of
voluntarily surrendering his medical   license. In all States
where this physician " voluntarily surrendered" his license, he
did so after being confronted by the state medical board for
indecent assault on a patient. Wi thin 3 years of obtaining a


                             avoided.
Federal position, this same physician was terminated for sexual
harassment. Had this organization properly inquired concerning
mul tiple licenses and their status, the risk associated with this
physician could have been
rinding:	 All organsa ioD. require app1ican    o sign . ..en
          iDdica       ey UDders and
                     ing                   ey will be .ubjec
                 dia e diS8ssa1 or pelty for false disclosure.
Most of our respondents agreed that use of disclosure is a good

 screening " technique. One respondent stated his organization
used disclosure statements to discourage physicians with
histories of disciplinary actions. When confronted with
answering the questions truthfully or facing a penalty for false
disclosure, they found physicians often withdrew their
applications.
All organizations require appricants to permit the release of
information from past and present employers, schOOls, law
enforcement agencies and other individuals and organizations.
For clinical care applicants, the NIH requires information from
administrators and members of medical staffs of other hospitals
or institutions, .edical associations, malpractice carriers, the
AM, FSMB and other nationally      recogzed
                                          bodies that maintain
automated data files on clinical care practitioners.
The NIH' s, VA' 8,   and the Ar' s attestation form reqire the
physician's agreement to release from liability all entities, and
their representatives, from actions performed in good faith and
wi thout malice. Such a release clears the way for an employer to
verify an applicant' s credentials, competence, character and
professional ethics.
. .




      Finding:   Diacloaue reqea a are of     en open


                   aiD erpre ioD .
      In comparing the various disclosure questionnaires used by the 15

      organizations, some allowed the applicant to provide a less than

      complete and truthful response.

      Following are examples of questions regarding professional

      liabili ty:


            Have you had any malpractice claims wi thin    the last 5 years
           or is a claim pending?"
            Have you ever had any malpractice actions instituted

           against you?"

      The first example places a   year limitation on the disclosure
      reqest.   Serious violations of professional conduct and
      instances of medical incompetency could have occurred prior to
      the time period specified. Nei ther example requests past and
      present liability claims/judgments/settlements made against a
      hospital, corpration, or  Governent, based on a case directly
      under the applicant'   s care.

      Some examples of
      licensure are:
                         porly crafted   questions concerning multiple

            Do you hold a
                                 and:
                             current, valid, unestricted
                                                       licensee s) to
           practice medicine, dentistry, or podiatry in a U. S. State(

           or territory(s)?"
            List States granting ful     /unestricted professional
           licenses/ certificates. "
      Many physicians, especially those in the early years of their
      practice, hold up to three or four State medical     licenses.
                                                                   While
      it is not unusual to find a physician not renewing some medical
      licenses as his/her practice becomes mere established in a given
      State( s ), one must guard against the incompetent and/or
      unprofessional physician who voluntarily surrenders his license
      in one State only to set up practice in another State in which
      he/she holds an    unestricted medical license. By limiting the
      disclosure to " full/unestricted" or " curent, valid,
      unestricted" one has provided a loophole for the physician

      applicant to avoid divulging past or present restricted,
      suspended, revoked or voluntarily surendered medical licenses.
      In one situation, the application form itself allows apace for
      listing thee State licenses. Ths     allows the physician to avoid
                                          thse disciplinar
      divulging the State( s) that have taken              actions
      against him/her, by listing only        States where he/she has an
      untarnished record.
                                          ...... ...


 Wi threspect to disciplinary actions taken against a physician
 license to practice medicine, one organization requests a

 physician to disclose if his/her license has ever been

 lost/revoked.  Such disciplinar actions as suspension or
 restriction of a medical license or denial of such are not

 requested.
Many of the disclosure requests/questions begin with:


               Has your license

               Has your application

               Is your license

If a physician has more than one license or has filed

applications for more than one license, then the physician could

respond to the disclosure questions by referring only to those

State licenses and applications for licensure where he/she has an

untarshed record.
Appendix B contains a suggested disclQsure questionnaire with
sample language for each inquiry. The model is based on the
strong disclosure reqirements used by NIH and the military.
VEIFICATION 'lCHIQUES
Finding:                 Verifica   ioD     eciques
                                                used by organiza ioD. var
                         widely. rew organza ion.
                         .ource.
                                                    cOD8i.    ly COD
                                 o verify llical ' degree., re.idency  primry
                            ifica e. or licenure . atu..
Any one or combination of the fOllowing techniques were used to
verify particular information: ( 1) visual inspection; (2)
telephonic confirmation: (3) written
National Agency Check and Inquiry (NACI): (5) background
                                                            reqests
                                              (vouchers): (4)
investigations; (6) accessing third-
screening against approved
                                                            part data bans:
                                                      and (7)
                                                listings.
Most respondents who 
   tially screened the application said they

looked at the form to ensure all the necessar information was
present for a determnation whether the applicant met the
end of           ths paricular phase ofsoe
necessary qualifications. For         organizations,      ths
                                                         was the
                                        the verification process.
                                                            For
others, if " something didn' t look right"
made.
                                                  inquiry was   furher
All organzations sent letters to physician-supplied references.

A few organzations indicated that references were called
directly. One organzation developed a form to solicit .pecific
information regarding the applicant over the phone.
information regarding reference fOllow-up is contained on

                                                                          Fuer
page 16.
   Verification of medical education usually consisted of review of
   a submitted copy of the diploma and residency certificate.
   However, recogizing that copies of medical degrees and
   certificates can be forged or altered, the Joint Commission on
   Accredi tation of Health Care Organizations requires effective
   January 1, 1988 as a standard of accreditation , that hospitals
   use primary sources such as medical schools and residency
   programs to verify the qualifications of doctors seeking clinical
   privileges .
  Several respondents indicated that State licensure boards were
  contacted to verify the status and validity of the current
  license ( s ); however , only the military and VA contacted
  applicable State boards to determine the status of all current

  and past licenses held by an applicant. In addition to
  verification of licensure status, for military physician
   applicants, the Ary     and Navy verified, from primary sources, the
  rest of an applicants credentials, including requesting

  transcripts from all
  checking with the AH , ECFMG and
                                                   schols
                                   (including foreign schOOls) and
                                       specialty boards to verify
  school accreditation, completion of an approved residency 

  necessary, board certification. A physician is not officially
and, if

  hired until the entire verification process is completed.
  An analysis of HHS and VA case abstracts indicates that

  contacting appropriate third parties to verify medical degrees

  and licensure could have prevented unqualified physicians from

  entering Federal service. To illustrate, an investigation of the

  circumstances which left a surgical patient in a irreversible

. coma due to brain damage revealed that the Federal physician who
  administered the anesthetic during surgery was not a
  Before this physician was emplpyed by the Federal    physician.
                                                                                        Governent, the
  ECFMG was aware that this physician 


  degree from a foreign medical         poster had a
                                         This same person
                                                             medical
                                                              school.                    bos
  repeatedly attempted to obtain a medical license in different
  States but failed to pass licensing         Despi te failing to
  obtain an ECFM certificate and repeated failures   to obtain a
                                                                  exam.
  State medical license in ..veral 

- forged foreign
  Governent.                              doents
                                              s person presented

                           and obtained a position vi th the
                                                               States,



               Had the emloying organzation not relied on copies
  provided by the applicant and verified credentials by contacting

  independent sources, 

                                ster could have been exposed,
  denied Federal                          emloyent,
                             and not allowed to endanger patients.
  Finding:                     nU8r
                                                    cb or backgroud
                                             of re8pnden't.       a..U8       't't all or pa't of a
                           pby.iciaD ' .
                           8U 'tbili 't
                                                    creden'tial. vere      verified 'tough
                                                                               inv..'tiga'tioD8.
 All Federal emloyees must undergo a
                                              check or acme form
 of background investigation. Most of the physician
                                                                          secuity
 the organzations reviewed were classified in
                                                     emloyed by
                                                                                    nonsenitive
 posi tions which do not require extensive background
 investigations.

 Physicians occupying nonsensi ti ve positions receive a basic

 securi ty check referred to as a NACI. The OPM has the
 responsibility for conducting NACIs, although certain Federal
 organizations have made arrangements with OPM to conduct their
 own NACIs. The NACI consists of:
            a written request (called voucher) for verification of
            highest educational level or degree achieved:
            vouchers to all schools (if any) in the last 5 years:

            vouchers to all employers (if any) in the last 5     years;


      Eo.   name and fingerprint search of FBI
                                                            and,
            name check of OPM records for results of investigations
            conducted by other Federal components:

                                                       files..
 An HACI sui tability check is not designed to determine whether a
 physician is properly           licensed.
                                   Those physician who have
 graduated from foreign schools and whose emploYment references

 are outside the Uni     States may have none of their professional

 qualifications verified because the NACI does not verify foreign

 education or foreign emploYment. Some components incorrectly

 assume that the NACI constituted verification of credentials. 

 components want credentials information verified they may request

 OPM to include it in the NACI or seek verification through other

 primary sources
 The Departent of  State  the Bureau of Prisons, and Coast Guard
 have classified all medical officer positions as sensitive or
 higher and thus perform full background investigations on each
 physician.  However, this          senitivity
                                       level is required of other
 professionals in these organzations, and
 special scrutiny of physicians.

                                                  dos
                                                not reflect


  Raising the sensitivity level of positions occupied by physicians

                                Goernent , unalified,
  may reduce the risk of unethcal                   or impaired
  physicians entering               service, but will increase the
  cost of the investigation. The NACI for physician occupying a
  nonsensitive position costs about $15 to conduct. Raising the
  sens! ti vi ty designation to the next higher level would add a
  credit check, increasing the cost to about $100 per physician.
  More in-depth background investigations can cost up to $2, 000 or
  more depending on the scope and depth of the investigation
. desired by the                      le OPM
  organzations for conducting MACIs, the cost not
                 organzation.                    dos  charge
                                                  of any . check. or
  investigation above the level of a NACI must be assumed by the
organization. As detailed in the next finding, there are other

verification technques available.
Finding:   Sam organiza ion. access independen      a ban. 


           verify physician creden ials and adverse prac       ice
           his ory inform ion.
The three agencies employing the most physicians , VA , HHS , and
DOD ,screen all physician applicants against a disciplinary data
bank operated by the FSMB. This bank serves as the primary
center for collection , maintenance , and reporting of disciplinary
actions taken against physicians resul ting from formal charges by
FSMB member boards and other governental authorities. ( See
Appendix C for more information regarding this data ban.
The FSMB' s data pertains only to disciplinary actions taken

against licensed physician or physicians applying for a license
It canot identify whether a physician holds a license at all qr
is licensed in a given jurisdiction if no disciplinary actions
have occured. Direct confirmation with the licensure board is
the best method of verifying licensure   status.
Many organzations who employ fewer physicians were not aware of

this disciplinary data base. Others  which did not use it
expressed dissatisfaction with the accuracy and the relevance of

the information available. Those organizations who use it as a

screening tool were generally satisfied but did express some

concern about the uniformity of the data reported.

One organzation reported difficulty in following up with the
State licensure boards on a potential " hit" from the data      ban.
The hit resulted from information supplied by the licensure board
regarding a physician who voluntarily surrendered his license.
Many state licensure boards will not release information
concerning their investigations when the physician in question
vOluntarily surenders a- license to practice medicine before the
board completes its investigation. Simlarly, many Federal
organzations will not release information when physicians
voluntarily terminate their employent rather than face
disciplinar  action and possible   involuntar removal from Federal
service.
Another data base used by many of the organzations is the AH
Physician Masterfile, which profiles a physician s education
training, board certification, memberships, and biogaphical
information. It also contains limited licensure information, and
indicates whether the physician died in the last 15 years.
Special ty board certification can also be verified by purchasing

a compendium of board certified   physician prepared by the
American Board of Medical Special ties located in Evanton,
Illinois. However,   the most current and accurate information
regarding board certification can be obtained directly from the

appropriate specialty board.

Pinding:	    Form letters (vouchers) used by most organizations to
             contact references do not obtain all 'te needed
             informtion.
The letter the Coast Guard sends to professional references

specifically queries    for: (1) confirmation of staff privileges
and any restrictions/limitations: (2) clinical/professional
knowledge; (3) professional reputation; (4)
professional/personal ethics; (5) ability to work with colleagues
and staff: and, (6) the ability to communicate with the patients.
The Department of State letter specifically asks about any
disciplinary actions. On the other hand, a standard form that is
used by many organizations has a checklist with items like
 capaci ty for development, " and " attendance.  The sections for
written  coments do not focus on professional ability,
reputation , or any disciplinary actions.
Pining:	     PersoDDel 8auals, hadbooks and  directives are, for
             'te most par,
             credentials.
                           silent regarding how to verify physician

Most of the organizations reviewed in this study operate a number
of health care facilities located across the   country.
the preemployment process for physicians starts in local
                                                          Generally,
personnel offices. From there, the process becomes somewhat
fragmented in that certain tasks in verifying a physician
credentials are done by local staff and others by Headquarters
staffe    The number of physician hired may vary from facility to
facili ty e . Many of the local personnel offices may process only a
few physician applications a year. Therefore, personnel
specialists may have limited familiarity with the complexities of
physician credentialing.
Personnel manuals, handboks and  directives do not often
stipulate how to verify a physician s credentials. Only PHS,
VA, the   Ar and the Navy have developed written guidelines to be
used by employee specialists in screening and verifying
physician credentials. These guidelines stress the importance of

verifying all information obtained from applicants with primary
sources, or thrd-
described.          par sources such as the data   bans previously
The PHS guide lists verification sources, indicates how to
access them, and contains examples of the   tyeof information
available. The guide also provides a list of coments and
questions that personnel specialists should use in assessing the

information collected to determne if the applicant is qualified

and sui table for employment.

Findg:	              aecent: legislat:ion has expanded 'te                      independent: -ourees
                     available for                      credent:ials verificat:ion.
The Health Care Quality Improvement Act of 1986 requires that

paid medical malpractice actions and claims be reported to the

Secretary of HHS. This Act also requires health care entities

wi th formalized peer review mechanisms to report to the

Secretary, through the State licensing boards , disciplinary

actions they take against physicians. The State licensing boards
must review these health care entities
warranted , take disciplinary action. Any disciplinary action
                                                                       ' referrals and, if
taken by State medical boards must, in turn                 The
Secretary will maintain and make this information available to

                                                                            , be reported.
hospi tals and certain other heal th care providers.
Federal agencies submitting data or accessing this data bank

must:
        w (
              1) use due process in a professional review acti vi ty or
        its equivalent for its actions to be accepted by 

                                                                                          e bank:
        and	
        ( 2) have an              approved Privacy Act system of records for (a)
        submi tting                data to the ban ifit is to do so one for (b)
        obtaining               data from the ban if it is to do so.
The HRSA will oversee the operation of the National Practitioner
Data Ban and  organizations will be subject to user fees before
they may access the                          ban.
The Medicare and Medicaid Patient and Program Protection Act of

1987 expands the provision of The Health Care Quality Improvement

Act of 1986 regarding disciplinary information by permitting the

Secretary to gather information concerning:


         (A) Any adverse actions taken by such           authority
        as a result of the proceeding, including any revocation or
                                                                           licening
        suspension of a license (and the           any such
        suspension), repr and, cenure, or probation.
                                                                      lengt of
    e B) Any dismssal or closure of 'te proceedings by reason of
    the practitioner or entity surendering the license or
    leaving 'te State or jurisdiction.


    e C) Any other loss of the license of the practitioner or
    entity, whether by operation of law, vOluntary surender
    otherwise.                                                                                 , or
                      q)),


The iaw also allows for the dissemination of such       information:
     " ( 1) to agencies administering Federal heal th care programs
     including private entities administering such programs under

     contract,
     ( 2) to   licensing authorities described in subsection (a) ( 1 ) ,
     (3) to State agencies administering or supervising the
     administration of State health care programs (as defined in
     section 1128    (h) )
     ( 4) to     utilization and quality control peer review
     organizations described in Part B of Title XI to
     appropriate entities with contracts under section l154
     ( a) ( 4 ) ( C) with respect to eligible organizations reviewed
     under the contracts,

     ( 5) to   state medicaid fraud control units (as defined in
     section 1903(

     ( 6) to hospi tala and other health care entities (as defined
     in section 431 of the Health Care Quality Improvement Act of
     1986 ),   with respect to physicians or other licensed heal
    care practitioners that have entered (or may be entering)
                                                                    th
    into an employment of affiliation relationship with , or have
    applied for clinical privileges or appointments to the
    medical staff of , such hospitals or other health care
    entities (and such information shall be .deemed to be
     provisions of, that Act),
    disclosed pursuant to section 427 of , and be subj ect to the

     (7) to the Attorney General and such other law enforcement
     officials as the   Secretardeems appropriate, and
     (8) upon    reqest, to the Coptroller General,in order for
     such authorities to determine the fitness of individuals to
     provide health care services, to protect the health and
     safety of individuals receiving health care though such
     progams, and to protect the fiscal integrity of such
     progams. "
Proposed FederalreglationS    pertaining to the Health Care
Quality Improvement Act of 1986 have recently been released.
Federal reglations   regarding the Patient and Progam Protection
Act of 1987 are under development. Therefore, details regarding
the tye  of information that is to be reported have not yet been
widely dissemnated. However , most of the information currently
being reported to FSMB will also have to be reported to the
Secretar of  HHS. Appendix C describes the
contained in FSMB' s disciplinar data     ban.   tys
                                                   of information
Addi tional informa ion regarding the operation of the Federal
bank and the information it will contain can be ob
                                                      ained from:
               Office of Quality Assurance
               Bureau of Health Professions
               Heal th   Resources and Services Administration
               Room 8-15 Parklawn Building

               5600 Fishers Lane

               Rockville, Maryland 20857
               (301) 443-2300

                         I:II .   RECOMMATIONS

Recollenda tiOD:    Agencies emloying civil  service, clinical care
                    physicians should require 'tem to ..intain

                    cuent,   valid State medical licenses;       or,
                                                                'to be
                    consistent wi't o'ter personnel    system,OPM
                    should require all clinical civil service

                    physicians, once emloyed, 'to main'tain a curren
                    medical license.
The military, VA , Department of state and the PHS Commissioned

Corps personnel systems (all with certain exceptions) require
clinical care physicians to maintain their licensure status while
employed. Only civil service does not. It is inequitable that
physicians working side by side in an organization , with the same

duties and responsibilities, are subj ect to different licensure

requirements because they were hired under different personnel

systems.
Physicians in private practice or employed by non-Federal health
institutions are all required to have .medical licenses and renew
them when necessary. These same physicians are subj set to
renewal requirements, such as continuing education, and
disciplinary actions mandated by the state licensure boards.
These requirements not only help to reduce the      pol
                                                     of unlicensed
physicians in this country, but also enhance quality assurance
COllents:
All respondents concur with this recomendation. One
organization indicates that they will be pursuing the policy of
requiring civil service physic,ian within their organization to
maintain valid     licenses.
                           This is consistent with requirements
for civil service physicians in clin cal care positions working

for DOD , PHS, VA, and the Department of State.

The OPM ind cates they wil be reexamining the medical officer

qualification standards under civil service. One of the key

issues that will be addressed is the need to      reqire
care physicians to maintain curent, valid licenses.
                                                    clinical
RecOlendation:      Physician disclosure reqr..nts wi 'tin
                    agenies should be unifora across all
                    organsations and persoanel services. Most
                    organsations should reqest IIre in-depth
                    discloaue of advers. practice history
                    iDfoZ'tion fr08 applicants. Discloaue
                    qustion shoud      be WZi tten in . clear

                    precise 88er.
The extent to which clinical care physician applicants are
required to disclose adverse practice history informtion varies
grea ly even wi thin organizations. Adverse practice history
information may not necessarily disqualify the physician from
employment. However , in determining a physician s medical
practice " track record, " it is important to obtain as complete a
profile of an applicant as is possible. To assist the
organizations in this endeavor , a suggested disclosure
questionnaire has been developed and is contained in Appendix 

Commen 1:s :

All respondents agreed with the intent of this recommendation.
One organization indicated that they would review their current
application package to determine which of the questions on the
suggested disclosure questionnaire might be incorporated.
However, it appears, based on the comments, that not all agencies
are taking s eps to ensure uniform disclosure requirements across
all organzations within                   their agency.
                                        Differences will still
exist in some agencies depending on the personn,l system under
which the applicant applies.
Rec08enda1:ion:                   '!e IIS1: cuen1: lic-.ses    held by an app1ican1:
                                  abould always be verified direc1:1y with the
                                  appropria1:e S1:a1:e licensing board.
                                  Organza1:ioDS should also con1:ac1:
                                  sources 1:0verify 88ica1
                                                                      prim
                                                               degrees and
                                  c08le1:ioD of residencyprog88.
Few organizations consistently verify academic and licensure
credentials with primar sources  such as registrars ' offices or
licensure boards. The case abstracts we reviewed show that such
verification would have helped the employer avoid making an
erroneous or dangerous hiring 
                  ecision.
COllen1:s :
One respondent advised us                  that, in the futue,
                                                they will include
in the full field background investigation . verification of a
physician s license though individual State licensing boards and
(verification of) adverse practice history el1ci ted from the
applicant. .
Another respondent advised us that, effective January 1, 1988,

the Joint 
     ssion on Accreditation of Heal thcare Organizations
changed its standards to                  reqire
                                   that physician credentials be
verified with 
primary issuing authorities. This standard is in
the implementation phase during this first
medical facilities which do not comply will jeopardize their
                                                              year.
                                                    Following that,
accredi tation status. Based on                   ths
                                       information we have revised
the text of our report by changing the word advates to
requires.
Recommenda ion :   Mo.  of the organiza ions reviewed should
                       rengten verificaion procedures by
                   developing wri                 o be used by
                                          en guidelines 


                   personnel involved in verifying physician
                   qualifica        ions.
                                    Verification of disclosure
                   informtion should include accessing national
                   physician da       a bans such            as FSMB' S disciplinary
                          a base and the AH Physician               Mas   erfile.
Physician credentialing is a complicated process. Many   personnel
specialists process only a few applications each year and may
have limited familiarity. with the complexities involved or the
verification sources         available.
                                  Some respondents assumed
incorrectly that the NACI constituted verification of

credentials.
Wri tten guidelines for verification procedures would provide
guidance to less experienced personnel specialists and reduce the
variabili ty of verification techniques which we encountered.
C08n    s:

One agency that curently has guidelines that mandate

verification of qualifications with outside authorities will

consider contacting primary sources for future verification of

physicians ' credentials.
Anther respondent,  in commenting on physician credentials
verification in general , felt that OPM " should issue
governentwide regulations on I credentialing physicians, rather
than each agency issuing its own.    The OPM, in their response to
us, indicates they consider DOD policies and procedures regarding
physician credentialing exemplar. They plan to make these
procedures . knwn to all agencies employing civil service
physician    and recomend that they follow these guidelines as
appropriate.

The   Ar, in their coents,    indicate that they will gladly

provide details regarding m dical quality assurance and
verification of professional qualifications to any agency or
organization desiring assistance in this         The PHS    area.
guidelines entitled " Manual for Preemployment Screening of
Physician ' Credentials " is also available upon request.
A number of respondents felt that the use of physician data bans
such as the AM' s Physician Masterfile or FSMB' s disciplinary
data base should not supersede verification of a physician'
credentials with pr         ar
                         or issuing sources, i. , medical
8chools and State licensure boards. We agree that information
regarding physician credentials provided by the applicant during
the application process should be verified directly with the
primar  sources. As indicated in the report, FSMB' s data base
can    identify whe her a physician holds a license at all or is
licensed in a given jurisdiction if no disciplinary actions have

occurred.  However, use of na ionally operated data bans can
provide informa      hat will confirm a physician s disClosure of
                   ion

adverse practice history information or indicate whe her the
             hheld any pertinent information. 

physician wi 




Use of the AM' s Physician Masterfile provides additional

biographical information and of more importance , if known , will

indicate whether the physician has died in the last 15 years.
This may indicate that the applicant is an            imposter.
                                                       Based on
these comments we have clarified the recommendation to stress

verification of disclosure information through these
sources.                                                      tyes
Rec08lenda1:ion:     All agencie8 should screeD physician
                     applican1:8, an periodically 8cree all
                     phY8ician -.loyee. ag8in81: 'te federal1y­
                     opra1:ed Na1:iona1   Prac1:ice Da1:a Ban when
                     opera1:ional. 'l8   ac1:i vi 't should be
                     coordina1:ed wi't all persoanel ays't- and
                     organiza1:ion. opera'ting wi
                     ene    all physicians are
                                                  'tn  'te agency 1:0
                                                  8creeed.
Federal agencies employing large numbers of           physician
                                                       suchdata
DOD, VA and HHS are already making arrangements to use the  as
ban.   We believe all Federal employers with physicians on staff
should avail themselves of this resource.
C08n1:. :
All of the respondents concurred with this recommendation and all

but two specifically stated
                                            ey would be using the federally-

operated b                  when operational.

IV.   APPENICES

                                                                      fAI'"E.V       ij8$Y
                                                                                                                Perlonl SYlte.1
Depar t8ent/Ad8ini Itr.t ion                         C08nta Cont.cted                             , fult-tl8e      Civil Service
                                                                                                  'hYllclen        Ifn It.ry
Veterans Administration (VA)	                                                                           027
National Aeronautics and                             NASA
Space Administration (NASA)
Department of JUltlce (DOJ)	                         lure.u of Pr   Ilonl                                            CS: PNI COMMISSIONED CORPS
Department of Defense (000)	                         Ar.,                                           11 , 361         CS: II
                                                     ..vy
Department of St.te (DOS)	                           DOS                                                             for.lgn Service
Department of T r.nsport.t               Ion	        CO.lt Gu.rd                                                     M: 'HI COMMISSIONED CORPS
(DOT)	                                               feder.l Avl.tlon Admlnlltr.tlon
                                                     (fAA)
Department of Heal th              .nd               locl.I Security Admlnlltr.tlo" (SSA)

Human Servicel (HHS)                                 H..lth C.r. Fln.nelng Admlnlltr.tlon (HCFA)                     CS: PHS COMMISSIONED COR'S

                                                     Public He.1 th Service (PHS)                       800
                                                     . Centerl for Dlse..e Control (CDC)                             CS: PHS COMMISSIONED COR'S
                                                     - Alcohol   , Drug Abuse & Ment.1 He.I
                                                           Ad8lnlltr.tlon (ADAMHA)                                   CS: PHS COMMISSIONED COR'S
                                                     . food & Drug Admlnlstr.tlon (FDA)                              CS: PHS COMMISSIONED COR'S
                                                     . H..lth Resources & Service. Admlnl.tr.tlon
                                                           (HRSA) - Indl.n He.lth Service (IHS)                          PHS COMMI SSIONED CORPS
                                                     . ..tlon.1 Institute. of He.lth CNIH)                           CS; PHS COMMISSIONED CORPS
-According to OPM survey .. of 
                12/850
:t. 


                                         APPBNDIX 8

                             MBDICAL OFFICER DISCLOSUR MODEL


        I f you answer " Yes "
                            to any of the following questions,         Yes
        a full statement of explanation must be attached.

               List all jurisdictions in which you currently hold

               or have held a professional license.




        2..	   Bas your professional license to practice in any
               jurisdiction ever been limited; suspended, revo&ed,
               denied, refused renewal, issued on a temporary
               basis, or voluntarily surrendered?
               Bave liability claims been filed against you, or

               against a hospital, corporation, or government based

               on a case under your care?
               Bave judgments or settlementa been made against you,

               or against a hospi tal, corporation, or government

               based on a case directly under your care?

               Bave you ever had, or are you about to have, your

               professional liability inaurance declined,

               cancelled, issued on special ter.s, or refuaed

               renewal?

               Provide the naes and addresses (past and present)

               of all of your professional liability insurers and

               your policy   Dwars.


               aave you    eve ben    sanctioned by the Medicare or

               M8dic:id .rogr..      or by any other rederal agency?
               Sa.. any or all of your privilege. at any
               care facility ever been, or are about to be,

                                                             balth

               1illi ted, supended, revoked, ref.ed    rea_al, or

               voluntarily surrendered?

               Bave you ever been censured or     repri8nd8
                                                          by a

               licensing board, bospita1 ..dieal bord/staff, or

               any otber profesaional organi.ation?

        10. aave you ever ben denied     ...barahip or reneval
               thereof, or been .ubject to disciplinary proceedings

               by any medical or profe.aional organi.ation?

                     ---   --.

  .I


: llas List all jurisdictions (past and present) where you          Yes
       are or were r gis ered under Title 21, u. s. Controll­
       ed Substance Act and provide your DEA controlled
       substance registration number       for each jurisdiction.
        . I f you have never been registered under this Act,
       so state.




   be Has your r egistrat ion under this Act ever been

      denied, suspended, revoked, refused renewal,

      or vOluntarily surrendered?

   c. Have you ever been charged with, or are currently

      facing charges, hof a violation of this Act?


  12. II Have you ever been charged wi th,
                                         or are currently
       fac ing charges of, a vi ola t ion of
                                         any State, Feder a 1,
       local, or any foreign government law (esg_, child

       abuse, sexual assault, fraud, substance abuse

       (alcohol/drugs), etc      s )? "


  Signature, Certi   ficati on,    and Release of Information
            You Must Sign this Application. Read

           The Following Carefully Before You Sign.


       I fully understand that a false statement to any
       question in this application, or the
       misrepresentation of information otherwise provided,
       may constitute cause for denial/revocation of
       medical staff appointment and/or clinical privileges
       and may be punishable by fine or imprisonment (U.
       Code, Title 18, Section 1001).
       I certify that the statements/documents that I have
       made/provided in this application are true,
       complete, ana-c   ect to the best of my knowledge
       and belief and are made in good faith.
       I hereby authorize investigators, personnel staffing
       specialists, and other authorized employees of the
       Pederal government to consult with administrators
       and members of medical staffs of other hospitals or
       insti tutions wi th which I have been associated and
       wi th others, including past and present malpractice
       carriers, who may have information bearing on my
       professional competence, character and ethical
       quali fications.
..



     I fully understand that these Federal
     representatives may validate my professional
     credentials by consul tinq wi th th Amer ican Medical
     Association, Federation of State Medical  Bords,   and
     other nationally recognized bodies that maintain
     automated data files on clinical care practitioners.
     I hereby further consent to the inspection by the
     above mentioned Federal representatives of all records
     and documents, including medical records at other
     hospitals, that may be material to an evaluation of
     my professional qualifications for the position
     applied for. I hereby release from liability all
     representati ves of the Federal government for their
     acts performed in good fai th and without malice in
     connection with evaluating my credentials and
     qualifications, and I hereby release fraa any
     liability any and all individuals and organizations
     who provide informtion to these representatives in
     good fai tb and without malice concerning .Y
     professional copetence, ethics, character and
     other qualifications for the medical officer
     position and any applicable clinical privileges, and
     I hereby consent to the release of such informtion.



       gnature                               . Date
 ..
1/   II




                                                  APPENIX C

                DESCRIPTION OF THE FEDERATION OF STATE MEDICAL BOARDS'

                                             DISCIPLINARY DATA BAN



          The FSMB was founded in 1912 and is the National Organization of
          Medical Licensing and Disciplinary              Boards. Its
                                                          membership is
          comprised of the Medical boards of all the States, the District
          of Columbia, Guam, Puerto Rico, and the Virgin Islands and
          includes 11 of the 16 separate osteopathic boards in the United
          States. The 10 Canadian provincial medical licensing
          authori ties hold affiliate membership.

          The FSMB operate. a physician disciplinary data
          collects, .aintaina, and report.
                                                                        ban
                                                                (DDB) and
                                                        disciplinar
                                                        actiona taken
          again.t phy.ici&n re.ul ting from formal charge., by 1 t. member
          boards and other governental author1 tie..
          The tyes   of disciplinar actions collected and subseqently
          reported by FSMB involve the revocation, probation, suspension,
          denial, re.triction, or voluntar surender of a   medical license
          and/or narcotic permt, HHS Medicare/Medicaid sanctiolU,
          sanctiona  iJ.ed  by DOD, BCF   sanctiona, allegationa of
          cheating on the Federation Licenaing Bx8lnat10n, which i8 now
          uaed by all State.            an a
                                   nU8ber of other juri.dictions, .a11
          fraud and inatance. of
          for a comlete
                                           repr:1d or ad8ni.hlent.
                                                             (See Ezibi 1: A
                                         . of disciplinar actions
                               list of the

          ma.ntained by FSMB.
          Acce.. to . the infor8ation aaintained in the DDS fall. int:o
          .ajor categories - full acce.. and l     ted acce... All physician
          licensin an/or diaciplina                 an
                                          boarda in th U. S..
          are Pederation 
      1:t report
                             .ber. or
                                       an
          for inclu.ion in the DDS, th AH,
                                           action
                                                                  Canada that
                                                          to. the Pederation
                                                   the A8rican O.teopa'tc
          As.ociation (oZ'tion proide for attibuted
                     che..
          acce.. at no
          with di.ciplin,                   Depart. an
                                  Pedral an State
                               inve.tigative, or 1- enforc_nt
                                                              uae) have full
                                                                        agencies
          respnsibilitie. related 1:        cal care al80 have full access
          but 111: pa a 
      ne1:
                                iated fee. Lil ted acce.. service. are
                                   fee bais, to hospitals (invidual,
          proided, CD a
          grup,  OJ: 81
                       netiatedtion 87t-), health an profe..ional
          liability iD8D cariers, Mlected phician grup. (health
                        U.1U



          IInt8f8    or8DaaUon: State, regionl an local 1npendent
          practice 888Oiation, 8tC.. ), an State an coty 88cal
          8Oietie.
. ... \"
  3. -





                                 Exibi t A:    Action Cod..



           100 LICESE    REVOKED
           101 ALCOHOLISM
           102 INCOMPETENCE/MALPRACTICE/NEGLIGENCE
           103 NARCOTIC VIeLATIONS
           104 FELONY
           105 FRAUD
           110 UNROFESSIONAL CONDUCT
           120 MEAL DISORDER
           130 ALLOWING UNICENSED PERSON TO PRACTICE
           140 VOLUNARY SURRENER OF LICENSE
           150 DISCIPLINARY ACTION TAK IN ANOTER STATE
           180 OTHR REAON - NOT CLSIFIED

           200 CODS/PROBATION
           200 PROBATION FOR MEICA LICESES (ALONE OR AFTER STAY qF
               OTER ACTION)
           201 ALCOHOLISM
           202 INCOMETENCE/MAPRACTICE/NEGLIGENCE
           203 NACOIC        VIOLATIONS
           204 FEONY

           205 FRUD

           210 UNROFESSIONAL CONDUCT
           220 MBAL DISORDER
           230 ALLOWING UNICESED PERSON TO PRACTICE
           250 DISCIPLINAY ACTION TAK IN ANR STATE
           260 PROBATION MODIFIED
           270 VIOLATED PROBATION
           280        HAON - NO CLSIFIED
           300 COOS/SUPENION

           300 LICBB SUSPENED
           301 ALCOLISM

                    ft/MPRACTICE/NBIG8CB
           302

           303

           30&
                 ..co
                    IC VIOLATION
           305

                 ..aoALn8ION
           310

           320

           330
           380
                 Ar
                 O' UAN
                        DISORDD
                               CONDUCT

                       UNICBSED PDSON If PlCTIC8
           350 DISCIPLINA ACION TAK            STAft
                                                  IN

                                         NO CLSIPIBD
           .a CODB/MISCBLAS

           400 LICZB ItTORB OR RBINSTA'l

               401. 1 Prb.         8d - 188Ued
                                   iOf                         un.8
                        licen8           o pr.c ic8
                 401. 6 R88 or8d or r8ift              8d bu   ill Of probation
. -

      tt "



      tI


                       401.	           a.stored or reinstated but must limit              practice
                                          o certain area(     or institutlon( s)
                                                                   s)
                       401. 8                her restoration/reinstatement, not listed
                 402   REINSTATEM DENIED
                 403   LICESE BY RECIPROCITY DENIED

                 404   ADMITTANCE TO EXINATION DENIED

                 405   NARCOTIC PERMITS
                       405.	 Permission given to apply for permit
                       405. 2. Direc ed not to apply for permit
                       405. 3 	Reques ed  o and/or voluntarily surrendered
                                       permi t

                       405.	           Permit no longer needed as per agreement with
                                       board
                       405.	           P.rmt denied
                       405 e           P.rmi..ion given             o apply for .   ed schedules
                 406 REPRIMA OR ADMONISHM
                 407 DUPLICATE LICESE ISSUE
                     401. 1 Chg. of nae
                     401.	 Lic.ns. . olen or                        lost
                 408 ACCSATION DISMISSED
                 409 DENIED PDM LICESB       - ISSUE TERAY LICESE
                 410 OTR MISCELLAOUS ACTION - NO CLSIFIED
                     (stipula ion or coft.n ord.r)
                 411 ALLEGATIONS   OP CHTING
                     411.      1 baaaken bu grade. not given out
                     411. 2 ' Bjected fre baa
                 412 LICESB DENIED
                     412.	                     ial.
                                       Fraudulent

                     412.	                    8Cc.p .ble evid.nc.                        of
                                       postgraduate tra1ng
                                       Pailed to sub8 




                       412.	           Falsified Applica ion
                       412. 4          Ot.r               listed
                 414 RES'l POR 'lIMATION OP PROBATION                           DENIED
                 490 ACCSATION FILBD - COAC MEICA
              500 CODB/MISCBLA
                 500 MISCBS
                 513 D. S. M8ICA SAIONS (SSA: SBC 1128/1862 (d)
                       1160 )
                       513.	 88luaion
                       R3. 2 SU8:1on
                       113.
                       513.	
                               3 .i
                                 ..tD8
                                       aval
                 514 1A10M O. MILI'1AI SDVIC8
                     514.	 lDt88rat. ua of alcol
                     514. 2 NarU,c v:olat:l0f/ua
                       514.	
                       514.	
                                       B8al1: r.lated
                                 1:en./nelig8.
                                                               prol­
                       514.     not listed
                 515 DISMISSED PR MILITAR SBRVICS
                       515.	            Int.-ra1:. us.             of alcol
                       515.	           Narcotic v:lola :l0f/U8.
                       515.	            B811: related probl..
j"
     lJ" '\\




                     515.    Incompetence/Negligence
                     515. 5    her not listed
               516   POSTAL INSPECTION SERVICE (MAIL' FRAUD FRAUDULENT
                     CREDENTIALS)
                     E. C. F . M. G. (FRAUDULENT CREDENTIALS)
               517




                                           Cot
